                                                                  E-IN-OSS-0081-2001

           United States Department of the Interior

                            Office of Inspector General
                                 Washington, D.C. 20240


                                                                         April 10, 2002

Memorandum

To:      Assistant Secretary for Policy, Management and Budget

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Independent Auditors’ Report on the Interior Franchise Fund’s Financial
         Statements for Fiscal Years 2001and 2000 (No. 2002-I-0030)


       KPMG LLP, an independent certified public accounting firm, audited the Interior
Franchise Fund’s (IFF) financial statements as of September 30, 2001 and for the year
then ended. The contract required that KPMG conduct its audit in accordance with the
Government Auditing Standards issued by the Comptroller General of the United States
of America, Office of Management and Budget Bulletin No. 01-02, Audit Requirements
for Federal Financial Statements, and the General Accounting Office/President’s
Council on Integrity and Efficiency Financial Audit Manual.

        In connection with the contract, we monitored the progress of the audit at key
points and reviewed KPMG’s report and related working papers and inquired of their
representatives. Our review, as differentiated from an audit in accordance with
Government Auditing Standards, was not intended to enable us to express, and we do not
express, opinions on the IFF financial statements or on conclusions about the
effectiveness of internal controls or on conclusions about compliance with laws and
regulations. KPMG is responsible for the auditors’ report (Attached) and for the
conclusions expressed in the report. However, our review disclosed no instances where
KPMG did not comply in all material respects with Government Auditing Standards.

        In its audit report dated February 5, 2002, KPMG issued an unqualified opinion
on the IFF’s financial statements for fiscal year 2001. The balance sheet of IFF as of
September 30, 2000, was audited by other auditors whose report dated January 19, 2001,
expressed an unqualified opinion on the balance sheet, before the restatement described
in Note 9 to the 2001 financial statements. KPMG audited the adjustments described in
Note 9 that were applied to restate the September 30, 2000, balance sheet and the
beginning balance on the statement of budgetary resources. In KPMG’s opinion, such
adjustments were appropriate and had been properly applied. The statement of net cost
for the year ended September 30, 2000, was not audited.
        KPMG found eight internal control weaknesses related to financial reporting five
of which are considered material weaknesses. With regard to compliance with laws and
regulations, KPMG found IFF to be noncompliant with portions of the Federal Financial
Management Improvement Act. Specifically, IFF’s financial management systems did
not meet Federal financial management systems requirements and the IFF did not comply
with federal accounting standards. In addition, KPMG found that the IFF was not in
compliance with Section 113 of Public Law 104-208 concerning advances.

        IFF concurred with all 11 recommendations and indicated corrective action would
be taken. Based on IFF’s response, we consider all 11 recommendations resolved but not
implemented. The recommendations will be referred to the Assistant Secretary for
Policy, Management and Budget for resolution and tracking of implementation.

         Section 5(a) of the Inspector General Act (5U.S.C. App. 3) requires the OIG to
list this report in its semiannual report to the United States Congress.

        The Independent Auditor’s Report is intended for the information of the
management of IFF, the Office of Management and Budget, and the U.S. Congress. The
report, however, is a matter of public record, and its distribution is not limited.


Attachment
            2001 M Street, NW
            Washington, DC 20036




                                      Independent Auditors’ Report


Executive Board of the Interior Franchise
Fund and Inspector General
U.S. Department of the Interior

We have audited the accompanying balance sheet of the Interior Franchise Fund (IFF) as of September 30,
2001, and the related statement of net cost, statement of changes in net position, statement of budgetary
resources and statement of financing, (herein after referred to as the financial statements) for the year then
ended. The objective of our audit was to express an opinion on the fair presentation of these financial
statements. In connection with our audit, we also considered IFF’s internal control over financial reporting
and tested IFF’s compliance with certain provisions of applicable laws and regulations that could have a
direct and material effect on its financial statements.

The balance sheet of IFF as of September 30, 2000, was audited by other auditors whose report dated
January 19, 2001, expressed an unqualified opinion on the balance sheet, before the restatement described
in Note 9 to the financial statements. The statement of net cost for the year ended September 30, 2000 has
not been audited.

Summary

As stated in our opinion on the financial statements, we concluded that IFF’s financial statements as of and
for the year ended September 30, 2001, are presented fairly, in all material respects, in conformity with
accounting principles generally accepted in the United States of America.

Our consideration of internal control over financial reporting resulted in identifying the following
reportable conditions:

   Reportable Conditions That Are Considered to be Material Weaknesses

    A.   Establish Procedures and Controls to Record Obligations
    B.   Re-Design the Process for Recording Minerals Management Service (MMS) Activity
    C.   Improve Controls over Accruals
    D.   Improve Timeliness of Transaction Entry and Reconciliation
    E.   Improve Organizational Structure
   Other Reportable Conditions

    F. Improve Application and General Controls over Financial Management Systems
    G. Document Policies and Procedures for Certain Areas
    H. Review and Investigate Old and Negative Account Balances

The results of our tests of compliance with certain provisions of laws and regulations, exclusive of those
referred to in the Federal Financial Management Improvement Act (FFMIA) of 1996, disclosed an instance
of noncompliance with the following laws and regulations that is required to be reported under
Government Auditing Standards issued by the Comptroller General of the United States and OMB Bulletin
No. 01-02, Audit Requirements for Federal Financial Statements:

    I.   Section 113 of Public Law 104-208 - Advances for Interior Franchise Fund

In addition, our tests of compliance with FFMIA section 803(a) requirements disclosed instances where
IFF’s financial management systems did not substantially comply with federal financial management
systems requirements and the federal accounting standards.

The following sections discuss our opinion on IFF’s financial statements, our consideration of IFF’s
internal control over financial reporting, our tests of IFF’s compliance with certain provisions of applicable
laws and regulations, and management’s and our responsibilities.

Opinion on the Financial Statements

We have audited the accompanying balance sheet of IFF as of September 30, 2001, and the related
statement of net cost, statement of changes in net position, statement of budgetary resources and statement
of financing, for the year then ended. The balance sheet of IFF as of September 30, 2000, was audited by
other auditors whose report dated January 19, 2001, expressed an unqualified opinion on the balance sheet,
before the restatement described in Note 9 to the financial statements. The statement of net cost for the year
ended September 30, 2000 has not been audited.

In our opinion, the financial statements referred to above, present fairly, in all material respects, the
financial position of IFF as of September 30, 2001, and its net cost of operations, changes in net position,
budgetary resources, and reconciliation of net cost of operations to budgetary obligations for the year then
ended, in conformity with accounting principles generally accepted in the United States of America.

We also audited the adjustments described in Note 9 that were applied to restate the September 30, 2000
balance sheet and the September 30, 2000 balances on the fiscal year 2001 statement of budgetary
resources. In our opinion, such adjustments are appropriate and have been properly applied.

The information in the Management Discussion’s and Analysis and Required Supplementary Information
sections are not a required part of the financial statements, but is supplementary information required by
the Federal Accounting Standards Advisory Board or Office of Management and Budget Bulletin No.
97-01, Form and Content of Agency Financial Statements, as amended. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of measurement
and presentation of this information. However, we did not audit this information and, accordingly, we
express no opinion on it.

Our audit was conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The Other Supplementary Information section is presented for purposes of additional analysis of the
financial statements and is not a required part of the financial statements. Such additional information has
not been subjected to the auditing procedures applied in the audit of the basic financial statements and,
accordingly, we express no opinion on it.



                                                    2
IFF prepared the accompanying financial statements assuming that IFF will continue as a going concern.
As discussed in Note 6 to the financial statements, the expiration of IFF’s authorizing legislation on
October 1, 2002 creates an uncertainty about IFF’s ability to continue as a going concern. Management
plans regarding this matter are also described in Note 6. The financial statements do not include any
adjustments that might be necessary if IFF does not continue as a going concern.

Internal Control over Financial Reporting

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect IFF’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal control, misstatements, due to error or fraud may nevertheless
occur and not be detected.

We noted certain matters involving internal control over financial reporting and its operation that we
consider to be reportable conditions. We believe that reportable conditions A through E are material
weaknesses:

   A. Establish Procedures and Controls to Record Obligations

         IFF has not fully implemented internal controls and procedures to ensure that IFF records
         obligations when they are incurred. IFF’s current process is to record obligations when payments
         are made to the service providers. As we determined that obligations are incurred prior to when
         IFF pays the service providers, IFF completed an analysis of obligations that resulted in restating
         prior years undelivered order balance by approximately $60 million and adjusting the current year
         undelivered order balances by approximately $150 million.

         Recommendation

         We recommend that IFF establish procedures and controls to record obligations when they are
         incurred instead of when they are paid. As part of this process, IFF should establish formal
         interagency agreements with each service provider that should serve as the basis for recording
         obligations.

         Management Response

         IFF concurs. IFF and its service providers will work together to establish workable and cost
         effective procedures and controls to record obligations on the IFF books. The KPMG
         recommended approach, i.e. establish formal interagency agreements with the Service Providers,
         is already in place between the IFF and the National Business Center (NBC) and thus will be used
         as the basis for recording obligations to NBC. The same approach will be considered, among other
         options, as the basis for implementing the recording of obligations between IFF and MMS.




                                                     3
B. Re-Design the Process for Recording MMS Activity

   The process for recording activity related to MMS is a manual process that needs to be
   improved. The process begins with MMS recording transactions into their accounting system
   (i.e., ABACIS) at the purchase order level. MMS manually extracts information from
   ABACIS into a billing spreadsheet that MMS sends to IFF. IFF uses the billing spreadsheet to
   record activity into their accounting system (i.e., Federal Financial System).

   In addition, the process for recording activity related to MMS does not enable IFF to
   efficiently reconcile the individual agreement balances. MMS records activity at the purchase
   order level in ABACIS, reports the purchase order level information on the billing
   spreadsheet, and adds the related agreement numbers to the billing spreadsheet. IFF records
   the activity at the agreement level in its accounting system.

   As the billing spreadsheet contains historical activity and has numerous lines, both MMS and
   IFF expend a significant amount of time reviewing and reconciling the spreadsheet to their
   accounting systems.

   Recommendation

   IFF has started a process to redesign the procedures for recording the MMS activity. For
   example, IFF is in the process of evaluating the cost/benefit of an automated interface between
   the ABACIS and FFS accounting systems. We recommend that IFF complete its process to
   redesign the procedures and controls for recording the MMS activity. This revised process
   should include controls to ensure that transactions are properly extracted from ABACIS and
   entered into FFS.

   Management Response

   IFF concurs that procedures and controls for recording transactions initiated by Minerals
   Management Service need improvement. IFF will work with MMS to make needed
   improvements to ensure all expense transactions are recorded accurately by reimbursable
   agreement in the IFF accounting system.

C. Improve Controls over Accruals

   IFF has not fully implemented internal controls and procedures to ensure that liabilities are
   accrued for goods and services received prior to the end of the reporting period. Specifically
   we identified several instances where the accrued liability balance was understated. As a
   result, IFF worked with its service providers to analyze the accrued liability balances and
   adjust the balances, appropriately.

   Recommendation

   We recommend that IFF work with its service providers to establish procedures and controls to
   ensure that accruals are recorded for services and products received prior to the end of the
   reporting period. These procedures and internal controls should be completed each quarter, as
   the Department of the Interior will be required to prepare and submit semi-annual financial
   statements in fiscal year 2002 and quarterly financial statements in fiscal year 2003.




                                          4
       Management Response

       IFF concurs. IFF will work with its service providers to establish procedures and controls to
       ensure that revenue and expense accruals are recorded on both IFF’s and the service provider’s
       books prior to the end of each quarter and more frequently if necessary. Additional attention
       will be directed towards procedures for synchronizing the accruals and timely reconciliation of
       differences.

D. Improve Timeliness of Transaction Entry and Reconciliation

   IFF does not consistently record financial transactions and reconcile the financial accounts in a
   timely manner. For example, we noted that IFF did not record June transactions until the second
   week in July and that IFF recorded numerous transactions after the end of the fiscal year. We also
   noted that IFF did not reconcile its balances and related activity with its service providers (i.e.
   Minerals Management Service and National Business Center) periodically during the fiscal year.
   Instead, after the end of the fiscal year, IFF began the process to reconcile their balances and
   activity with the balances and activity reported by the service providers. At the end of December,
   IFF and the service providers were unable to fully reconcile these balances. After incurring a
   significant amount of time and resources, the balances and activity were ultimately reconciled to
   within an insignificant amount.

   Recommendation

   We recommend that IFF record the financial transactions on a daily basis and reconcile all
   financial accounts on a monthly basis. We also recommend that IFF reconcile its balances and
   activities with the service providers’ balances and activity on at least a quarterly basis. The
   reconciliation process should include resolving any differences identified in a timely manner.

   Management Response

   IFF management concurs with the recommendation and will develop procedures for recording
   transactions on a daily basis during the month and reconciling all accounts on a monthly basis,
   including prompt follow-up on any differences identified. See responses to B. and C. above.

E. Improve Organizational Structure

   IFF is a “virtual organization” that utilizes personnel from both of its service providers. Although
   several personnel are fully dedicated to working on IFF activity, there are several personnel who
   only spend part of their time working on IFF activity. As a result of utilizing personnel from
   different service organizations, IFF does not have clear lines of responsibility or reporting. This
   causes delays in processing of IFF transactions because IFF activity does not appear to receive the
   same priority as the other activity processed by the service providers.

   Recommendation

   We understand that the IFF Executive Board and Department of the Interior management are in the
   process of evaluating the IFF organizational structure. We recommend that the IFF executive board
   and Department of the Interior management complete this evaluation process and adjust the
   organizational structure as appropriate.




                                              5
        Management Response

        IFF concurs. As part of the effort to obtain permanent franchising authority within the Department
        of the Interior, the IFF Executive Board and Departmental management have jointly begun, but
        have not yet completed, a process of reviewing the organizational structure of the IFF to make it
        more efficient and effective, including reviewing authorities and responsibilities related to
        oversight and compliance.

We noted the following reportable conditions, which are not considered to be material weaknesses:

   F. Improve Application and General Controls over Financial Management Systems

        The Interior National Business Center (NBC) administers the IFF financial management systems
        including the Federal Financial System and Hyperion. Although NBC has recently improved the
        security and controls over these information systems, NBC needs to continue improvements in the
        areas of entity-wide security planning; configuration of the operating systems; system software
        controls; software development and change controls; and service continuity. Weaknesses in these
        control areas could affect IFF’s ability to prevent and detect unauthorized changes to its financial
        information and increases the need for less efficient manual controls to monitor financial
        information.

        Recommendation

        We recommend that IFF annually obtain assurance similar to a SAS 70 type II report from NBC
        that adequate security and controls are in place over the financial management systems.

        Management Response

        IFF concurs. Beginning with FY 2003, IFF will annually request written assurance from the NBC
        that adequate security and controls are in place over the financial management systems. If such
        assurances are not forthcoming, IFF will explore alternative methods for preventing and detecting
        unauthorized changes in its financial information.

   G. Document Policies and Procedures for Certain Areas

        Documentation of the procedures and internal controls to record transactions is an integral
        component of an effective internal control system. The IFF has not fully documented procedures
        and internal controls for recording and monitoring accounting transactions and preparing financial
        statements. As a result, IFF may not record financial transactions consistently and may not perform
        the related internal controls and procedures effectively. In addition, IFF may not record
        transactions efficiently, especially if there is a change in personnel performing the procedures and
        internal controls.

        Recommendation

        We recommend that IFF develop and implement procedures and internal controls for recording
        financial transactions and preparing financial statements as indicated in the OMB Circular A-123,
        section II, Establishing Management Controls and GAO’s publication GAO/AIMD-00-21.3.1,
        Standards for Internal Control in the Federal Government. We also recommend that IFF
        communicate these procedures and internal controls through training.




                                                   6
        Management Response

        IFF concurs. IFF can benefit from additional policies and procedures for recording and monitoring
        revenues, expenses, fund balance with Treasury, accounts receivable, advances from others, and
        accounts payable. Such policies and procedures are necessary to increase consistency in accounting
        operations treatment, improve data quality and controls, and provide the basis for on-going
        employee training. IFF will consider OMB Circular A-123, section II, Establishing Management
        Controls and GAO’s publication GAO/AIMD-00-21.3.1 Standards for Internal Control in the
        Federal Government during this development process.

   H. Review and Investigate Old and Negative Account Balances

        IFF does not consistently review and resolve older accounts receivable and payable balances.
        Specifically we identified several older accounts receivable and payable balances and several
        negative account balances. As a result, IFF investigated the older and negative accounts receivable
        and payable balances and adjusted the balances, appropriately.

        Recommendation

        We recommend that IFF design formal system generated accounts receivable and payable aging
        reports and review these reports on a monthly basis. IFF should investigate and resolve any
        accounts receivable and payable balances that are negative or over 6 months old.

        Management Response

        IFF concurs. IFF will develop monthly accounts receivable and accounts payable aging reports and
        establish procedures (see G. above) for reviewing and following up on accounts that are negative
        or over 6 months old.

A summary of the status of prior year reportable conditions is included as Exhibit I. We also noted other
matters involving internal control over financial reporting and its operation that we have reported to the
management of IFF in a separate letter dated February 5, 2002.

Compliance with Laws and Regulations

The results of our tests of compliance with certain provisions of laws and regulations, as described in the
Responsibilities section of this report, exclusive of the FFMIA of 1996, disclosed an instance of
noncompliance with the following laws and regulations that is required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements:

   I.   Section 113 of Public Law 104-208 - Advances for Interior Franchise Fund

        In accordance with section 113 of Public Law 104-208, IFF is required to obtain advances from
        customers before costs are incurred to provide goods or services to the customer. We determined
        that IFF does not consistently obtain advances from customers as IFF reported accounts receivable
        of approximately $15.8 million as of September 30, 2001.

        Recommendation

        We recommend that IFF require customers to pay in advance, in accordance with the laws, or
        consider requesting the U.S. Congress to change the laws governing this requirement.




                                                   7
        Management Response

        Department of the Interior developed appropriation language supporting the Interior Franchise
        Fund under the Government Management Reform Act establishing the franchise fund pilot
        program following the Office of Management and Budget guidelines. The intent of the pilot
        program was to allow these pilot programs to provide quality service at reduced costs to federal
        agencies through competition. IFF does not believe that the recommended appropriation language
        was intended to require advances for all services but was intended to allow the pilot program to
        receive advances so that the organizations could operate in a more business like manner. However,
        IFF can see how the existing language could be interpreted as described above. Interior will work
        with the Office of Management and Budget and Congress to adjust the appropriation to support the
        intent of the stated Government Management Reform Act objectives.

The results of our tests of compliance with other laws and regulations, exclusive of FFMIA, disclosed no
other instances of noncompliance that are required to be reported under Government Auditing Standards or
OMB Bulletin No. 01-02.

The results of our tests of FFMIA section 803(a) requirements disclosed instances, described below, where
IFF financial management systems did not substantially comply with the federal financial management
systems requirements and the federal accounting standards.

   J.   Provide Adequate Application and General Controls over Financial Management Systems

         As discussed in the section of our report entitled “Internal Control over Financial Reporting,” IFF
         needs to work with NBC to improve the EDP security and general control environment. As a
         result, IFF does not substantially comply with the security and general EDP control requirements
         of OMB Circular A-130, Management of Federal Information Resources.

         Recommendation

         We recommend that IFF take the necessary actions to improve the security and general controls
         over its financial management systems in accordance with requirements set forth in OMB Circular
         A-130 in fiscal year 2002.

         Management Response

         IFF concurs. See response to F. above.

   K. Federal Accounting Standards

        IFF is required to prepare its financial statements in accordance with Federal accounting standards.
        As discussed in the section of our report entitled “Internal Control over Financial Reporting,” we
        identified material weaknesses that affected IFF’s ability to prepare its financial statements and
        related disclosures in accordance with federal accounting standards. Specifically, we determined
        that IFF needs to re-design its process for recording MMS activity, improve controls over
        obligations and accruals, and improve timeliness of transaction entry and reconciliation.

        Recommendation

        We recommend that during fiscal year 2002, IFF strengthen its procedures and internal controls that
        ensure the financial statements and related disclosures are prepared in accordance with the Federal
        accounting standards.




                                                    8
        Management Response

        IFF concurs. See response to B. above.

The results of our tests of FFMIA section 803(a) requirements disclosed no instances in which the IFF
management did not substantially comply with the United States Government Standard General Ledger at
the transaction level requirement.

Responsibilities

Management’s Responsibilities

The Government Management Reform Act (GMRA) of 1994 requires a federal agency to report annually
to Congress on its financial status and any other information needed to fairly present its financial position
and results of operations. To meet the GMRA reporting requirements, the IFF prepares annual financial
statements.

Management is responsible for:

    •   Preparing the financial statements in conformity with accounting principles generally accepted in
        the United States of America;
    •   Establishing and maintaining internal controls over financial reporting; required supplementary
        information; and performance measures; and
    •   Complying with laws and regulations, including FFMIA.
In fulfilling this responsibility, estimates and judgments by management are required to assess the expected
benefits and related costs of internal control policies.

Auditors’ Responsibilities

Our responsibility is to express an opinion on the fiscal year 2001 financial statements of the IFF based on
our audit. We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States, and OMB Bulletin No. 01-02. Those
standards and OMB Bulletin No. 01-02 require that we plan and perform the audits to obtain reasonable
assurance about whether the financial statements are free of material misstatement.

An audit includes:

    •   Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
        statements;
    •   Assessing the accounting principles used and significant estimates made by management; and
    •   Evaluating the overall financial statement presentation.
We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2001 audit, we considered IFF’s internal control over financial
reporting by obtaining an understanding of IFF’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls in order to determine
our auditing procedures for the purpose of expressing our opinion on the financial statements. We limited
our internal control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 01-02 and Government Auditing Standards. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of
our audit was not to provide assurance on internal controls over financial reporting. Consequently, we do
not provide an opinion on internal control over financial reporting.


                                                    9
As required by OMB Bulletin No. 01-02, with respect to internal control related to performance measures
determined by management to be key and reported in the Management’s Discussion and Analysis, we
obtained an understanding of the design of significant internal controls relating to the existence and
completeness assertions. Our procedures were not designed to provide assurance on internal control over
performance measures and, accordingly, we do not provide an opinion on such controls.

As part of obtaining reasonable assurance about whether IFF’s fiscal year 2001 financial statements are
free of material misstatement, we performed tests of IFF’s compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 01-02, including certain provisions referred to in FFMIA. We limited our tests of compliance
to the provisions described in the preceding sentence, and we did not test compliance with all laws and
regulations applicable to IFF. Providing an opinion on compliance with laws and regulations was not an
objective of our audit, and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether the IFF’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
section 803(a) requirements.

Distribution

This report is intended for the information and use of Department of the Interior’s management,
Department of the Interior’s Office of the Inspector General, OMB and the U.S. Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




February 5, 2002




                                                 10
                                                                                               Exhibit I

                                 Interior Franchise Fund
                 Summary of the Status of Prior Year Reportable Conditions
                                   September 30, 2001



 REF                     Condition Area                                  Status

1.     Improve financial reporting and related controls:



           a. Improve monitoring of service provider This condition has not been
              relationships.                         fully corrected and is repeated
                                                     in conditions B and D above.


           b. Improve controls over payments to service This condition has not been
              providers.                                fully corrected and is repeated
                                                        in conditions B and D above.

           c. Document policies and procedures for This condition has not been
              closing the accounts for a reporting period. corrected and is repeated in
                                                           condition G above.

           d. Inadequate pricing knowledge.                  Although this comment has
                                                             not been fully corrected, we
                                                             do not believe that this
                                                             comment meets the definition
                                                             of reportable condition. As a
                                                             result, we have included this
                                                             as a comment in a separate
                                                             letter to management.

           e. Improve controls over deposits.                This condition       has   been
                                                             corrected.

           f.   Improve controls over accounts receivable.   This condition has not been
                                                             corrected and is repeated in
                                                             condition H above.

2.     Improve information technology controls.              This condition has not been
                                                             fully corrected and is repeated
                                                             in condition F above.




                                                11
